IN THE
SUPREME COURT OF THE UNITED STATES

FILED
JUL 3 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Dimitri Rozenman - PETITIONER
vs.
David Shinn, et al. - RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
U.S. Court of Appeals for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI
Dimitri Rozenman #253132
ASPC-Tucson/Santa Rita Unit/P.O. Box 24401
Tucson, AZ 85734-4401

QUESTION(S) PRESENTED
1. Whether the United States District Court (“U.S.D.C.”) erred in its finding that, in
order to obtain relief under Arizona v. Youngblood, 488 U.S. 51 (1988), Petitioner, in
addition to establishing bad faith, needs to prove either that evidence was tampered
with or lost.
2. Whether the U.S.D.C. erred in its finding that evidence posted on the internet
satisfies the disclosure requirement of Brady v. Maryland, 373 U.S. 83 (1963), and
its progeny.
3. Whether the state court erred in its finding that a Brady violation requires proof
of tampering; and
Whether the U.S.D.C. erred in its finding that Order 8.1 does not clearly
apply to recordings.
4. Whether the state court erred in its finding that Petitioner did not establish
evidence of bad faith on the part of detectives for their failure to preserve evidence;
and whether the state court erred in its finding that Petitioner failed to link bad
faith to evidence presented in the case.

l

LIST OF PARTIES
[ ]

All parties appear in the caption of the case on the cover page.

[X]

All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceeding in the court whose judgment is the subject of
this petition is as follows:
Dimitri Rozenman, Petitioner
vs.
David Shinn, Director of the Arizona Department of Corrections,
Rehabilitation, and Reentry; and
Mark Brnovich, Attorney General for the State of Arizona, Respondents.

RELATED CASES
State of Arizona v. Dimitri Rozenman, No. CR2009-007039-001, Maricopa County
Superior Court, Judgment Entered, June 3, 2013.
State of Arizona v. Dimitri Rozenman, No. 1 CA-CR13-0898 and 1 CA-CR13-0458
(Consolidated), Judgment Entered, January 1, 2015. (Appendix G)
State of Arizona v. Dimitri Rozenman, No. CR-15-0058-PR, Arizona Supreme Court,
Judgment Entered, August 24, 2015. (Appendix H)
State of Arizona v. Dimitri Rozenman, No. CR2009-007039-001, Maricopa County
Superior Court, Rule 32 Post-Conviction Relief (“PCR”), Judgment Entered,
September 28, 2016. (Appendix D)
State of Arizona v. Dimitri Rozenman, No. 1 CA-CR-16-0722 PRPC, Arizona Court
of Appeals, Division One, Judgment Entered, December 7, 2017. (Appendix E)
u

State of Arizona v. Dimitri Rozenman, No. CR-17-0614-PR, Arizona Supreme Court
Judgment Entered, May 28, 2018. (Appendix F)
Dimitri Rozenman v. Charles L. Ryan, et al., No. CV-18-01789-PHX-MTL, United
States District Court, District of Arizona (Habeas), Judgment Entered, November
21, 2019. (Appendix B), Report and Recommendation, Entered July 10, 2019.
(Appendix C)
Dimitri Rozenman v. Charles L. Ryan, et al., No. 19-17561, United States Court of
Appeals, Ninth Circuit, Judgment Entered, May 15, 2020. (Appendix A)

in

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

11

CONCLUSION

21

INDEX TO APPENDICES
APPENDIX A

Order of U.S. Court of Appeals for the Ninth Circuit Denying
Certificate of Appealability (COA)

APPENDIX B

Order of the U.S. Dist. Court Denying Habeas Relief

APPENDIX C

Findings and Recommendations of U.S. Dist. Court Magistrate
Judge

APPENDIX D

PCR Ruling of State Trial Court Denying Rule 32 Relief

APPENDIX E

Memorandum Decision of State Court of Appeals Denying PCR
Petition for Review

APPENDIX F

Order of Arizona Supreme Court Denying PCR Review

APPENDIX G

Memorandum Decision of State Court of Appeals Denying Direct
Appeal

APPENDIX H

Order of Arizona Supreme Court Denying Direct Appeal Review

IV

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Arizona v. Youngblood, 488 U.S. 51 (1988)

12, 13, 14, 19

Brady v. Maryland, 373 U.S. 83 (1963)

5, 12, 15, 18

United States v. Bagley, 473 U.S. 667 (1985)

12, 15

Strickler v. Greene, 527 U.S. 263 (1989)

12, 15, 16, 17

Banks v. Dretke, 540 U.S. 668 (2004)

12, 15

Norris v. State of Alabama, 294 U.S. 587

17

STATUTES AND RULES
28 U.S.C. §2254 (d) (1)

12

28 U.S.C. §2254 (d) (2)

13, 18

OTHER
Phoenix Police Department Operations Order 8.1

7, 8, 12, 13, 15, 17,
18

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
[ ]

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to
the petition and is
[ ] reported at

or,

[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court of appears at Appendix B to
the petition and is
[ ] reported at

or,

[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ]

For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix D to the petition and is
[ ] reported at

or,

[ ] has been designated for publication but is not yet reported; or,
1

[X] is unpublished.
The opinion of the state appellate court appears at Appendix G to the petition
and is
[ ] reported at

or,

[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.

JURISDICTION
[X]

For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
May 15, 2020.
[X] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:________

., and a copy of the order

denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including

(date) on

(date)in

Application No. _
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
[ ]

For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix____ .

2

[ ] A timely petition for rehearing was thereafter denied on the following
date:

and a copy of the order denying rehearing appears

at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including

(date) on

(date) in

Application No..
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Constitution to the United States of America, Fourteenth Amendment, Due Process
Clause states:
nor shall any State deprive any person of life, liberty, or property, without
due process of law;
28 U.S.C. §2254 (d)(1), states, in relevant part:
Resulted in a decision that was contrary to, or involved an unreasonable
application of clearly established Federal law, as determined by the Supreme
Court of the United States;
28 U.S.C. §2254 (d)(2), states, in relevant part:
Resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.

4

STATEMENT OF THE CASE
On March 18, 2010, a jury found Petitioner guilty of conspiring to murder his
ex-wife, Jana Rozenman (“J.R.”), and guilty of criminal damage to the cars of J.R.’s
family. These first convictions were overturned because the State violated Brady v.
Maryland, 373 U.S. 83 (1963) (hereinafter “Brady”).
Prior to the second trial, Petitioner invoked his right to proceed pro se and
represented himself during trial. Petitioner filed a pretrial motion for leave to
interview witnesses and obtain documentary evidence. (United States District Court
(U.S.D.C. Doc. 33, Ex. E) (hereinafter “Doc. 33”). The motion requested:
Question 16: Please provide a copy of the Policies and Procedure Manual for
dealing with obtaining, transferring, and retaining audio-video evidence.
Question 17: Please provide a copy of the Policies and Procedures Manual for
preservation of the chain of custody for all evidence (Id. At 10)
Petitioner conducted pro se pretrial interviews of Phoenix Police Department (“PPD”)
Sgt. Long and Detective (“D”) Carmody (“D.C.”). (Respondents’ Limited Answer to
Petition for Writ of Habeas Corpus (“Answer”) Exs. FFF and III, Attachments 6 and
7) (hereinafter Doc. 13, 14). In response to questioning, Sgt. Long told Petitioner that
he was not aware of any guidelines for preservation of evidence (Id. At 7). Later, the
same day, Petitioner asked D.C. to provide PPD procedures for “retaining audio-video
evidence” (Id. At 17, In. 13-16) and whether police “have any of those guidelines” (Id.
In. 24-25), D.C. explicitly replied, “No, sir.” (Id. at 18, In. 1).
Following trial, the prosecution conceded (Doc. 33, Ex. F at 2): “in this case,
defendant undertook multiple interviews in which he asked whether the police had
any policies or guidelines regarding collection or preservation of evidence. These
questions were asked prior to trial and were addressed prior to trial... Here, prior to

5

trial, the defense did request procedures from the police department relating to
collection preservation of evidence and was told that such policies did not exist.”
At trial, Detective Warner (“D.W.”) testified (Answer, Doc. 13 and 14, Ex. EE
at 29-30) that he did not impound any of the three (3) recordings of Petitioner’s
meeting with Levi Najar1 (“L.N.”), nor the confrontation call2, for over four months
because the chain of custody requires evidence to remain with the detective rather
than being impounded. (Id. Ex. Z at 153-163).
Similarly, Detective Egea (“D.E.”) testified (Id. Ex. Y at 142-144) that he
intentionally did not impound the death notification recording (State trial Ex. 100),
for over a month because he found it “ridiculous” to impound evidence, since to do so
would entail a hardship of a 40-mile roundtrip from his precinct to the impound
facility. (Doc. 13 and 14, Ex. Y at 83-86).
The trial revealed some evidence of collusion between J.R. and L.N. The record
of the meeting between Petitioner and L.N. indicates that L.N. told Petitioner that
J.R. offered him money to do away with Petitioner3. There may have been additional
statements by L.N. designed to provoke and incriminate Petitioner, but since the
recordings at issue were not properly preserved, we are left in the dark.

1 Trial ex. 96 (Hawk) and Ex. 97 (audio/video and transmitter). On these recordings Petitioner’s
responses to L.N.’s proposition to murder J.R. are entirely inaudible. Appendix B at 7, In. 8-10. E.g.,
on Ex. 96, responses are inaudible at 14 min./38 sec. and at 16 min./48 sec. The video of the
audio/video recording is pitch black for almost the entire recording, making it impossible to ascertain
what Petitioner is saying at the inaudible portions. Although Appendix B at 7 states Petitioner
agreed by nodding, since recordings were not properly preserved it is impossible to know what
Petitioner nodded to.
2 Trial Ex. 90, Petitioner supposedly, upon learning that J.R. and her parents had been killed, asked
L.N. when he will return to work. (Appendix B at 6).
8 Trial Ex. 96 at 24 min./40 sec.

6

J.R. testified (Doc. 13 and 14, Ex. FF at 128) that 7 days after Petitioner’s
arrest, L.N. showed up at her residence demanding payment in the amount of
$175,000. During the meeting, J.R. attempted to appease L.N. by telling him he would
get paid, but not right away: “I told him, I said, you have to understand I can’t. I said,
those $175,000 is not going to be, you know, one lump sum ... It will probably be over
a period of time.” (Id. at 131). J.R. testified (Id. Ex. GG at 36-37) that the reason she
told police about her agreement to pay L.N. $175,000 was because she felt threatened
by L.N.
J.R.’s telephone records (State trial Ex. 74) show that within 48 hours prior to
Petitioner’s meeting with L.N., she called L.N. 22 times. Despite the presence of the
telephone records, both J.R. (Doc. 13 and 14, Ex. FF at 61) and L.N. (Id. Ex. T at 108)
audaciously testified that they never talked to each other on the phone. However,
Detective Stewart testified (Id. Ex. LL at 107-108) that when he met with J.R., a day
prior to surveillance, she already told him that she spoke with L.N. on the phone
several times.
Since on the recordings Petitioner’s responses to L.N.’s proposition to have J.R.
murdered are inaudible (see Footnote 1) and the recordings were not impounded, the
authenticity of the recordings was a crucial trial issue. In the closing argument, the
prosecution emphasized the importance of that fact to the jury: “the fact that
Detective Warner had those disks for four months, not unusual, not anything against
police procedure. Dimitri would like you to believe that. It’s just not true.” (Id. Ex. PP
at 153).
Following the trial, upon Petitioner being convicted on both counts, Petitioner’s
friend at last, discovered PPD Operations Order 8.1 (“Order 8.1”) (Doc. 33 attached
to Ex. A at 1) (also attached as Ex. 3 to Answer, Doc. 14 Ex. FFF and III). Page one
of Order 8.1 is the only relevant page and is reproduced here in its entirety, (infra at
P-8)
7

EVIDENCE COLLECTION/IMPOUNDING PROCEDURES
Rev. 04/08

PHOENIX POLICE DEPARTMENT
1.

8.1
PAGE 1

RESPONSIBILITY FOR PROPERTY
A.

Employees will be responsible for the disposition of any property coming into their possession
during the course of their shift.

B.

AH property will be impounded prior to the end of shift, with the following exceptions:
(1)

(2)

When authorized by a supervisor:
(a)

Employees will provide their supervisor with a verbal or written descriptive inventory
of the property.

(b)

The property will-be kept in a secure location until formally impounded.

(c)

The bureau commander must approve secure locations that are used solely for the
purpose of temporary property storage.

(d)

Impounded items will be kept on Department property.

Impounding of cash, jewelry, items of value, drugs, and drug paraphernalia will not be
delayed.

C.

Found property where ownership can be established will be returned to the owner.

D.

Personal property where ownership is not disputed

E.

F.

2.

Operations Order

(1)

Property will be processed and returned to the owner after being photographed.

(2)

Officers will document the release of property to the owner in the narrative section of the
Departmental Report (DR).

(3)

A property invoice will not be created for property not impounded.

Personal property where ownership is disputed
(1)

Officers may seize and impound property based on probable cause.

(2)

Property will be returned when ownership is determined through appropriate legal
proceedings, consent of all parties, or proof of ownership.

Prior to impounding any property, employees will carefully examine the invoice and all items to
ensure the items are properly identified and processed.

CATEGORIES OF PROPERTY - There are four categories of property:
Evidence (El
Found (Fi
Safekeeping (K>
Prisoners IP)

Any property that can be used to prove or disprove the commission of a crime
Any property that comes into custody of the Department from any source not
needed for the prosecution of a crime, contraband, or an unknown owner______
Any property not defined as evidence that is to be temporarily held pending its
return to the rightful (known) owner
_____________________
Any personal property of an arrested person that cannot be released to another
person or held by the jail at the time of arrest_____________________

8

Following direct appeal, Petitioner filed a state petition for post-conviction
relief (“PCR”) (Id. Ex. FFF and III). In addition to presenting Order 8.1, Petitioner
also presented an under-oath deposition of William Lee (Id. at Ex. 5). The deposition
states that Lee was a PPD officer for 22 years (Id. Ex. 5 at 4-5) and that PPD D.W.
provided false testimony when he testified that the chain of custody requires evidence
to remain with the detective and not to be impounded (Id. at 8). Additionally, in Reply
to the State’s PCR Response (Doc. 33, Ex. C), Petitioner included the Affidavit of
Frank Rogers. Affiant Rogers stated that he was the Assistant Director of PPD
Laboratory Bureau when he retired after 35 years with the PPD. The affiant further
stated that D.E. lied when he testified that it would take a 40-mile roundtrip to
impound evidence. According to affiant Rogers, there are numerous impound
property annexes within 4-5 miles of D.E.’s workplace. (Cf..Doc. 13, 14, Ex. Y at 8386).
In response to Petitioner’s introduction of the affidavit of Gregg Stutchman to
the state PCR court (Doc. 33, Ex. D), which explained how the recordings at issue in
this case could have been altered, counsel for the State conceded that trial evidence
alone established this fact. (Id. Ex. KKK at 9)4.

4 Notwithstanding the fact counsel for the State conceded that all recordings could have
been altered, it is important to put emphasis on and clarify the findings of the U.S.D.C.
(Appendix B). On this point, the district court recognized (Id. at 11, In. 19-21) that the
State’s forensic sound expert impeached himself on cross examination when he testified
that, in a 4-month period, all not impounded recordings could have been altered. The
foundation for the sounds expert’s impeachment was laid when he testified on direct
examination that the recordings cannot be altered (Id. at 13, In. 8-11). Although the
U.S.D.C. relied on the decision of the state court of appeals (Id. at 11, In. 28, cf. Appendix
G), when it asserted that the date -- 1899 is not from the header that the State’s forensic
sound expert prepared, Petitioner explained in the district court (U.S.D.C. Doc. 5,
Attachment B at 5-6) how the state court of appeals misread the expert’s testimony, i.e. the
date 1899 is in fact from the header prepared by the State’s forensic sounds expert.
Moreover, the district court’s Order (Doc. 23-1) accepted the State’s ... (continued on next
page)
9

Without holding the requested evidentiary hearing, the state PCR court/trial judge
(Appendix D at 3) made the following relevant findings:
-

Brady Violation: “Defendant does not, however, address the fact that
experts who testified at the trial failed to find any indicia of the recordings
having been tampered with or altered.”

-

Youngblood Claim: “Defendant... correctly cites the law but fails to link
his claims to the evidence presented in the case. At no time has he been
able to establish bad faith on the part of law enforcement or the failure to
preserve evidence.”

- ■ “...the integrity of the evidence [i.e. recordings] was a crucial issue
addressed at trial.”
The PCR court’s findings are the last reasoned decision of the state courts.
Upon recommendation of the magistrate judge (Appendix C), the U.S.D.C.
(Appendix B) denied Petition for Habeas Corpus. On May 15, 2020, the Ninth Circuit
Court of Appeals (Appendix A) denied certificate of appealability.

... expert’s header with the date 12-30-1899. (located beneath FLEX8E#1329). Ultimately,
it is Doc. 33, Exhibit D at 2 that explains how any date can be programmed into a HAWK
recording.

10

REASONS FOR GRANTING THE PETITION
Summary of Argument
1. The holdings of Arizona v. Youngblood , 488 U.S. 51 (1988), do not require,
in addition to establishing bad faith, to prove either tampering or a loss of
evidence. The U.S.D.C. erred in its finding that in order to obtain relief
under Youngblood, Petitioner’s requirement extends beyond the showing of
bad faith.

2. Similarly, the district court erred when it found that having evidence (PPD
Order 8.1) posted on the internet satisfied the disclosure requirement of
Brady v. Maryland, 373 U.S. 83 (1963), and its progeny. Not only is it the
government’s duty to disclose to defendant all material evidence that is
favorable to the accused, United States v. Bagley, 473 U.S. 667, 682 (1985),
but moreover, in Strickler v. Greene, 527 U.S. 263 (1989), and Banks v.
Dretke, 540 U.S. 668 (2004), this Court held that defense can reasonably
rely on representation of the government.

3. The state PCR court erred when it found that Brady violation required proof
of tampering. Thus, the findings of the state PCR court are an objectively
unreasonable application of federal law under 28 U.S.C. §2254 (d)(1).
According to the Court’s holdings in Strickler, 527 U.S. at 281-282, only
three elements needed to be satisfied in order to establish a Brady violation:
(1) evidence is material because it is either exculpatory or impeaching; (2)
evidence was suppressed either willfully or inadvertently; and (3)
defendant suffered prejudice, i.e., there is a reasonable probability that had
the newly discovered evidence been disclosed, the outcome of trial would
have been different.
11

Considering the state court’s finding that “the integrity of evidence was a
crucial issue,” the reasonable probability of a different outcome is easily
established when discovery of Order 8.1, which clearly applies to
recordings, undermines the integrity of crucial evidence. Moreover, since
detectives decided not to impound the recordings, it means that what L.N.
told them - that Petitioner wanted his ex-wife killed - must not pan out to
be true. This impeaches L.N. and brings into doubt his story that he
observed Petitioner slash tires of the cars of J.R.’s family. Therefore, the
suppression of Order 8.1 creates a reasonable probability of a different
outcome on both counts. It would bring disrepute to our system of criminal
justice to hold a person in prison when newly discovered material facts
undermine the very evidence that the PCR court determined to be crucial.

4. In light of the evidentiary value of Order 8.1 and two under oath statements
from the retired PPD personnel, showing that D.W. and D.E. lied under
oath at trial, the state court’s finding, that Petitioner did not present
evidence of bad faith, was an objectively unreasonable determination of fact
under §2254 (d)(2). Similarly, the state court’s finding that Petitioner failed
to “link his claim to the evidence presented in this case” is also an
objectively unreasonable determination of fact under §2254 (d)(2). Since the
same court found that the integrity of the recordings was a crucial issue at
trial, this implies, that the recordings were likewise crucial for the
prosecution’s case-in-chief.

Argument
1. The district court erred in its finding that in order to obtain relief under
Arizona v. Youngblood. 488 U.S. 51 (1988), Petitioner needed to prove either
12

that the evidence was tampered with or lost in addition to establishing bad
faith (Appendix B at 9-12).
There is nothing in Youngblood’s holdings that requires Petitioner, in
addition to establishing bad faith, to prove that evidence was either tampered
with or lost. Although the U.S.D.C.’s Order (Id. at 11, In. 9) relied on
Youngblood, 488 U.S. at 57, for the proposition that: “Youngblood analysis is
only triggered where the defendant can point to some loss of evidence” (quoting
Id. at li, In. 7-8), that very section of Youngblood refutes the assertion of the
U.S.D.C. :
Due Process Clause requires a different result when we deal with the
failure of the State to preserve evidentiary material of which no more
can be said than that it could have been subjected to tests, the results
of which might have exonerated the defendant (emphasis added).
To require a defendant, in addition to establishing bad faith, to prove
that evidence was either tampered with or lost would require an impossible.
Since Petitioner’s responses, to proposition to have his ex-wife murdered, are
inaudible (see Footnote 1, supra), the responses could have been audible and
exculpatory had the recordings been properly preserved.
The reason why this Court should review and grant this Petition is
articulated in Youngblood, 488 U.S. at 58:
Requiring a defendant to show bad faith in the part of police ... confines
it to that class of cases where

the interests of justice most clearly

require it, i.e., those cases in which the police themselves by their
conduct indicate that the evidence could form a basis for exonerating
the defendant (emphasis added).

13

In finding that Youngblood required Petitioner to prove tampering or a
loss of evidence, in addition to establishing bad faith, the U.S.D.C. has
departed so far from the holdings of this Court as to require this Court to
exercise its supervisory power and review this petition.

2. The District Court erred in its finding that having evidence posted on the
internet satisfies the disclosure requirement of Brady v. Maryland, 373 U.S.
83 (1963). and its progeny.
As part of its finding, the U.S.D.C. observed: “The Phoenix Police Department’s
Operational Orders are available online, accessible instantaneously to anybody
with just a few clicks of the mouse” (Appendix B at 13, In. 21-23). But Petitioner
proceeded pro se and during the relevant time he was a pretrial detainee
confined within the walls of the Phoenix 4th Avenue Jail. Neither access to the
internet, not a computer, nor a mouse, were available to Petitioner. Therefore,
the U.S.D.C.’s finding that Order 8.1 was accessible to Petitioner failed to
account for the fact that Petitioner was incarcerated. And just because PPD
Operational Orders are available on the internet now, it does not mean that
they were accessible or available at the time of trial.
It is well-established that the prosecution has a duty to disclose all
material evidence in its possession that is favorable to the accused. United
States v. Bagley, 473 U.S. 667, 682 (1985). And as this Court reiterated “[A]
rule ... declaring prosecutor may hide, defendant must seek, is not tenable in
a system constitutionally bound to accord defendants due process.” Banks v.
Dretke, 540 U.S. 668, 124 S. Ct. 1256, 1275, 157 L. Ed. 2dll66 (2004).
More importantly, this Court, relying on Strickler, 527 U.S. at 283-84,
announced in the holdings of Banks v. Dretke, 504 U.S. 668 (2004), that
14

defendant “cannot be faulted for relying on ... representation [of the
government].” Petitioner’s case presents an even stronger argument for
suppression than does Banks, since the Petitioner relied not merely on the
force of Brady itself, but also on affirmative representation by Sgt. Long, that
he had no awareness of guidelines for preservation of evidence; and on
representation of Det. Carmody that no guidelines for retaining audio/video
evidence existed.
The U.S.D.C. has departed so far from this Court’s holdings in Banks v.
Dretke, supra, Brady v. Maryland, supra, and its progeny as to require this
Court to exercise its supervisory power and grant relief.

3. The state court erred in its finding that in order to establish a Brady
violation. Petitioner needs to prove tampering.
In order to establish a Brady violation, Petitioner needs to satisfy the
three elements of Strickler v. Greene, 527 U.S. at 281-82. These elements are:
(1) evidence is favorable to the defense, because it is either exculpatory or
impeaching; (2) evidence was suppressed; and (3) defendant was prejudiced,
i.e., there is a reasonable probability of a different outcome at trial.
At trial, the State’s sound expert, Jeff Smith, testified (Answer, Doc. 13
and 14 at Ex. U, p. 72) that he decided not to perform the authentication
analysis. And rightfully so, since he admitted on cross examination that in 4
months, all recordings could have been altered. (See Footnote 4, supra.)
Defense sound expert, James Reames, testified (Doc. 13 and 14, Ex. KK
at 22-23, 82) that there is no way to establish tampering because the recordings
are not original but are copies and, even if someone could find an alteration,
that alteration could have happened during the copying process from the
15

original to a copy. Given Reames’ testimony, had the jurors known that the
detectives lied as to why they did not impound the recordings, in which
tampering is impossible to establish, it is reasonable to believe that jurors
would have concluded that the original recordings must have been exculpatory.
Showing that the state court’s analysis of Brady conflicts with this
Court’s decision in Strickler, 527 U.S. at 281-82, is not enough to entitle
Petitioner to relief. Petitioner must also satisfy the first and third elements of
Strickler v. Greene, supra, i.e., that the undisclosed evidence is impeaching
and that there is a reasonable probability that the outcome of the trial would
be different had the evidence been disclosed.
The U.S.D.C. asserts “that Order 8.1 does not clearly apply to police
property, such as recordings” (Appendix B at 14, In. 18-19). Order 8.1 is clear
cut. Page one (1) of Order 8.1 states: “All property will be impounded prior to
the end of the shift” (emphasis original). At the bottom of page 1 are four (4)
categories of property; evidence being one of them. Evidence is therein defined
as “Any property that can be used to prove or disprove the commission of a
crime.” Since recordings were used to prove the State’s case, according to Order
8.1, they had to be impounded prior to the end of shift. Moreover, Petitioner
presented to the state PCR court Rogers’ affidavit and Lee’s disposition in
support of Order 8.1, while the State did not present any evidence to contradict
the fact that Order 8.1

applied to recordings. Under very similar

circumstances, this Court in Norris v. State of Alabama, 294 U.S. 587, 592-95
(1935), held that since prosecution did not present any evidence to contradict
the evidence presented by the defense, the evidence presented by defense must
be valid and correct. Accordingly, Order 8.1 impeaches D.W. and D.E.
The prejudice element of Strickler v. Greene, supra, is easily satisfied
here as well. Since the PCR court found that the integrity of the recordings was
16

a crucial issue at trial, it means the newly discovered Order 8.1 undermines
the very evidence the PCR court deemed crucial in prosecution of the case and
creates a reasonable probability of a different outcome at trial. In summation
the prosecution emphasized the importance of the detectives’ alleged
compliance with PPD procedure.
Although the U.S.D.C. Order (Appendix B at 6, In. 27—at 7, In. 4)
asserts that a detective testified that in an unrecorded conversation
Petitioner allegedly admitted to a murder for hire plot, the detective who
provided this testimony was D.E. (Answer, Doc. 13 and 14, Ex. Y at 76). D.E.’s
credibility is impeached by Order 8.1. Importantly, the U.S.D.C. (Appendix B
at 7, In. 12-15) does not refute the fact that the State’s every piece of evidence
can potentially be attributed to the officers’ malfeasance. The State’s entire
case hinged on the only physical evidence in this case - the recordings that
were not impounded.
Upon satisfying the 3 elements of Strickler v. Greene, supra, the
accepted course of judicial proceedings is to grant Petitioner relief. The state
court has departed so far from the accepted course that it necessitates the
exercise of this Court’s supervisory power.
At trial, the evidence against Petitioner in the criminal damage count
relied entirely on the testimony of L.N. who, months prior to the alleged
murder conspiracy, purportedly observed Petitioner slash the tires of cars
belonging to J.R.’s family (Doc. 13 and 14, Ex. Q at 106-115). In convicting
Petitioner of criminal damage, the jury undoubtedly relied on the fact that
L.N.’s testimony was consistent with the recordings. Has jurors known that
the detectives lied about why they did not impound the recordings, they would
have made a reasonable inference that L.N.’s story - that Petitioner wanted
J.R. killed - must not have proved to be true. This would bring L.N.’s entire
17

story into doubt. The jury was deprived of this vital evidence in assessing the
credibility of L.N.’s testimony. Thus, the Brady violation creates a reasonable
probability of a different outcome in both counts.

4. The state court erred in its finding that Petitioner did not establish evidence
of bad faith on the part of detectives for their failure to preserve evidence.
Additionally, the state court erred in its finding that Petitioner failed to link
bad faith to the evidence presented in the case.
The state court’s findings,described above and asserted by that court in
its PCR Ruling (Appendix D at 3), are objectively unreasonable determination
of facts under 28 U.S.C. §2254 (d)(2).
The PCR court had before it Order 8.1, the deposition of Lee, and the
affidavit of Rogers, yet ignored all this evidence in making its determination.
Additionally, not only did this same court determine that the integrity of the
recordings was a crucial trial issue, but in summation, the prosecutor described
the recordings as his best evidence (Doc. 13 and 14, Ex. PP at 147). At trial,
the HAWK recording was admitted into evidence (Id. Ex. R at 13) and played
for the jury (Id. at 31). The audio/video recording was entered into evidence
later the same day (Id. at 33-34). During the direct examination of L.N. the
State made great use of the recordings (Id. at 12-85). The confrontation call
(state trial Ex. 90) was also played for the jury (Id. Ex. S at 11). The prosecutor
made extensive use of that recording during the examination of L.N. (Id. at 614) and the examination of D.W. (Id. Ex. Z at 106-112 and Ex. BB at 95-109).
For description of these recordings, see Footnote 1 and 2.
Thus, the PCR court’s assertion that Petitioner failed to link the
evidence to the claim of bad faith is rebutted by clear and convincing evidence
18

and, therefore, constitutes a unreasonable determination of the facts in light
of the evidence presented in the state PCR proceeding.
When evidence is not preserved, and it is done in bad faith, the remedy
is to either suppress the unpreserved evidence, from being admitted as
evidence at a new trial, or, as here, when such evidence is central to the
prosecution, it requires dismissal of the charges with prejudice. Had the State
been unable to use the recordings to buttress the credibility of L.N. and had
the jurors known that the detectives lied as to why they did not impound the
recordings, Petitioner would be able to impeach L.N.’s credibility and cast
doubt on his entire story. Therefore, a finding that the recordings were not
preserved, and it was done so in bad faith, requires this Court to remand the
criminal damage count for a new trial.
The case before this Court is an instance where the holdings in Arizona
v. Youngblood, 488 U.S. 51 (1988), help establish Petitioner’s innocence. Had
the recordings been properly preserved, Petitioner would have been able to
prove that he repulsed any murder propositions. To hold an innocent person in
prison, whose conviction was obtained by misleading the jury and by violating
the very principles this Court developed to prevent such conviction,
undermines the integrity of the judicial system. Both the U.S.D.C. and the
state court departed so far from the holdings of this Court as to abrogate the
very principles on which the holdings are based. That is why it is necessary for
this Court to exercise its supervisory power and grant this Petition. If, in the
future, the same U.S. district and state courts disregard the guarantees of due
process, cited in this Petition, scores of other defendants can suffer the
Petitioner’s fate. This is especially so, since the safeguards developed by this
Court n Youngblood, Brady, and its progeny address questions of preservation
and access to evidence that ate indispensable in any trial.

19

Considering the implications broadly, lying in court is grievously
problematic beyond the Petitioner’s case. An experiment conducted by a Duke
University professor of psychology, Dan Ariely, demonstrated that even when
only one person cheats such behavior quickly becomes more socially acceptable
to others5. This is why it is important to grant this Petition to limit the ripple
effect of police perjury.
In addition, the importance of granting this Petition is that police
perjury, when left undisturbed by the courts, undermines the integrity of our
legal system. It also erodes public trust in the ability of courts to correctly
adjudicate cases. We all have a stake in ensuring that our criminal justice
system reliably separates the guilty from the innocent. Permitting the police
to get away with suppression and non-preservation of critical evidence not only
risks convicting the innocent, but helps the guilty avoid detection and strike
again.
The decision of the U.S.D.C. should be reversed. Count One, the
conspiracy to commit murder, should be dismissed with prejudice and Count
Two, the criminal damage, should be remanded for a new trial.

5 See Ariely, Dan, The (Honest) Truth About Dishonesty, Chapter 8, where students, who observed
only one student cheat, were more likely to engage in cheating. (Harper Perennial, 2013).

20

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted.

Date:

bl/2-9(ZD

21

